                     U.S. ENVIRONMENTAL PROTECTION AGENCY

                     OFFICE OF INSPECTOR GENERAL




                     EPA’s Risk Assessment
                     Division Has Not
                     Fully Adhered to Its
                     Quality Management Plan
                     Report No. 14-P-0350                                        September 10, 2014




                                                    Contribute to
                                                    OPPT Annual
                                                      Report


                                                                            Provide
                              Identify
                                                                             Formal
                           Training Needs
                                                                            Training




                                                    RAD Quality
                                                    Management
                                                       Plan
                         Conduct
                                                                                   Conduct
                        Management
                                                                                Internal Audits
                         Reviews




                                        Assign a
                                                                 Document
                                        Quality
                                                                Revisions and
                                       Assurance
                                                                  Updates
                                      Coordinator




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                 Bakari Baker
                                                     Heather Drayton
                                                     Jeffrey Harris
                                                     Lauretta Joseph
                                                     Kalpana Ramakrishnan




Abbreviations

EPA            U.S. Environmental Protection Agency
FY             Fiscal Year
IRIS           Integrated Risk Information System
OEI            Office of Environmental Information
OIG            Office of Inspector General
OPPT           Office of Pollution Prevention and Toxics
QAC            Quality Assurance Coordinator
QAM            Quality Assurance Manager
RAD            Risk Assessment Division
TSCA           Toxic Substances Control Act


Cover photo: Elements of the RAD Quality Management Plan. (EPA OIG image—
             colors chosen at random)


 Are you aware of fraud, waste or abuse in an          EPA Office of Inspector General
 EPA program?                                          1200 Pennsylvania Avenue, NW (2410T)
                                                       Washington, DC 20460
 EPA Inspector General Hotline                         (202) 566-2391
 1200 Pennsylvania Avenue, NW (2431T)                  www.epa.gov/oig
 Washington, DC 20460
 (888) 546-8740
 (202) 566-2599 (fax)
 OIG_Hotline@epa.gov                                   Subscribe to our Email Updates
                                                       Follow us on Twitter @EPAoig
 More information at www.epa.gov/oig/hotline.html.     Send us your Project Suggestions
                        U.S. Environmental Protection Agency                                                  14-P-0350
                                                                                                      September 10, 2014
                        Office of Inspector General


                        At a Glance
Why We Did This Review               EPA’s Risk Assessment Division Has Not
Our objective was to determine       Fully Adhered to Its Quality Management Plan
to what extent the
U.S. Environmental Protection         What We Found
Agency (EPA) Office of
Pollution Prevention and             RAD has adhered to some but not all aspects of its        Without a robust quality
Toxics’ (OPPT’s) Risk                current Quality Management Plan. RAD has not              management system,
Assessment Division (RAD)            fully implemented key aspects of its plan related to      RAD risks making
uses and implements quality          training, internal audits and plan revisions.             environmental and
management policies during           Additionally, unlike other agency offices, RAD does       human health policy
chemical risk assessments.                                                                     decisions that rest on a
                                     not post its Quality Management Plan online as a          faulty foundation.
                                     good business practice.
The goal of the quality
management system is to              RAD is not ensuring managers and staff take in-house formal quality assurance
provide a foundation to “ensure      training. RAD, instead, relies on branch chiefs and project managers to informally
that environmental data are of       train staff through mentoring. OPPT is aware of the need to provide formal quality
sufficient quantity and quality to   assurance training to its staff. The Quality Assurance Manager acknowledged the
support the data’s intended          quality assurance training gap and plans to develop specific quality assurance
use.” Each EPA office that           training. Additionally, RAD did not conduct a formal quality assurance training
collects, evaluates and uses         needs assessment.
environmental data is required
to develop a Quality                 The RAD Quality Assurance Coordinator has not conducted internal audits of
Management Plan. That plan           quality assurance programs. Moreover, RAD has not revised its Quality
defines an organization's            Assurance Annual Report and Work Plan or Quality Management Plan when
quality-related policies,            changes occurred to its program activities that involve major risk assessment
procedures, roles,                   responsibilities. Lastly, RAD does not post its Quality Management Plan on its
responsibilities and authorities.    Intranet, which can facilitate internal sharing and ease staff access. The EPA
                                     needs to have accurate, reliable and relevant Quality Management Plans
This report addresses the            because they are an essential part of valid and reliable decisions. Chemical risk
following EPA goal or                assessments using high-quality data are critical to maintaining public trust in the
cross-agency strategy:               EPA.
 Ensuring the safety of              Recommendations and Planned Agency Corrective Actions
  chemicals and
  preventing pollution.              We recommend that the Assistant Administrator for Chemical Safety and
                                     Pollution Prevention develop formal quality assurance training, direct RAD to
                                     conduct internal quality assurance audits and training needs assessments, and
                                     ensure that relevant RAD Quality Management Plans are updated when changes
Send all inquiries to our public
affairs office at (202) 566-2391
                                     to quality assurance activities occur. In addition, the Office of Chemical Safety
or visit www.epa.gov/oig.            and Pollution Prevention needs to provide RAD’s Quality Management Plan on
                                     the OPPT Intranet and conduct a quality assurance analysis of OPPT to
The full report is at:               determine whether all divisions have fully implemented their quality management
www.epa.gov/oig/reports/2014/        plans. The EPA agreed with our recommendations and has proposed acceptable
20140910-14-P-0350.pdf               corrective actions. All recommendations are resolved.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                    THE INSPECTOR GENERAL




                                          September 10, 2014

MEMORANDUM

SUBJECT:       EPA’s Risk Assessment Division Has Not Fully Adhered to Its
               Quality Management Plan
               Report No. 14-P-0350

FROM:          Arthur A. Elkins Jr.

TO:            Jim Jones, Assistant Administrator
               Office of Chemical Safety and Pollution Prevention

This is our report on the subject evaluation conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe problems the
OIG has identified and corrective actions the OIG recommends. This report represents the opinion of the
OIG and does not necessarily represent the final EPA position. Final determinations on matters in this
report will be made by EPA managers in accordance with established audit resolution procedures.

The offices with primary jurisdiction over the issues evaluated in this report are the Office of Chemical
Safety and Pollution Prevention’s Office of Pollution Prevention and Toxics, and the Office of Pollution
Prevention and Toxics’ Risk Assessment Division.

Action Required

You are not required to provide a written response to this final report because you provided agreed-to
corrective actions and planned completion dates for the report recommendations. The OIG may make
periodic inquiries on your progress in implementing these corrective actions. Should you choose to
provide a final response, we will post your response on the OIG’s public website, along with our
memorandum commenting on your response. You should provide your response as an Adobe PDF file
that complies with the accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as
amended.

We will post this report to our website at http://www.epa.gov/oig.
EPA’s Risk Assessment Division Has Not Fully                                                                               14-P-0350
Adhered to Its Quality Management Plan



                                     Table of Contents
   Purpose .....................................................................................................................   1

   Background ...............................................................................................................      1

   Responsible Offices ..................................................................................................          4

   Scope and Methodology ...........................................................................................               4

   Results of Review .....................................................................................................         4

   Conclusions ..............................................................................................................      7

   Recommendations ...................................................................................................             8

   Agency Comments and OIG Evaluation ..................................................................                           8

   Status of Recommendations and Potential Monetary Benefits .............................                                         9



 Appendices
   A       Agency Response to Draft Report and OIG Comments .................................                                      10

   B       Distribution .......................................................................................................    15
Purpose
                  Our objective was to determine to what extent the U.S. Environmental Protection
                  Agency’s (EPA’s) Office of Pollution Prevention and Toxics’ (OPPT’s) Risk
                  Assessment Division (RAD) uses and implements quality management policies
                  during chemical risk assessments.

Background
                  Since 1979, the EPA has required all organizations1 supporting environmental
                  programs to participate in the agencywide quality system. The EPA’s Office of
                  Environmental Information (OEI) is responsible for developing quality assurance
                  and quality control requirements2 and overseeing the agencywide quality system.
                  The goal of the quality management system is to “ensure that environmental
                  data. . . are of sufficient quantity and adequate quality to support the data’s
                  intended use.”3 A consistent quality management system, when implemented, will
                  provide the EPA the needed technical practices and management to assure that the
                  agency decisions are supported by adequate environmental data.

                  Each EPA office that collects, evaluates and uses environmental data is required
                  to develop a Quality Management Plan. The Quality Management Plan defines an
                  organization’s quality-related policies, procedures, roles, responsibilities and
                  authorities. According to the EPA Quality Manual for Environmental Programs,4
                  the OEI reviews and approves an office’s Quality Management Plan, which is
                  then valid for 5 years.

                  To assess the effectiveness of the approved quality management plan, program
                  offices are required to submit a Quality Assurance Annual Report and Work Plan
                  to the OEI. The OEI also conducts periodic assessments of the EPA’s
                  environmental programs to determine the effectiveness of their mandatory quality
                  systems and recommend corrective actions.




1
  EPA Policy CIO 2105.0 (EPA Order 2105), Policy and Program Requirements for the Mandatory Agency-Wide
Quality System, defines an organization as an office, region, national center or laboratory that collects or uses
environmental data.
2
  Quality assurance is an integrated system of management activities to ensure high-quality processes and products.
Quality control, in contrast, focuses on the quality of technical and operational activities. We focused on quality
assurance and related management activities in this report.
3
  EPA Order 2105 provides minimum quality system requirements for EPA organizations that collect or use
environmental data. EPA Policy CIO 2106.0, EPA Quality Program Policy, “provides the structure and procedures
to ensure and enhance the effectiveness of the quality program and its application to agency products and services.”
In addition, the EPA issued its Information Quality Act guidelines in 2002.
4
  The EPA Quality Manual for Environmental Programs provides the minimum program requirements for
implementing the mandatory Quality System defined in EPA CIO 2105-P-01-0.


14-P-0350                                                                                                              1
                   OPPT and Its Quality Management Plan

                   OPPT manages programs under the Toxic Substances Control Act (TSCA). The
                   objective of TSCA is to “allow the EPA to regulate new commercial chemicals
                   before they enter the market, to regulate existing chemicals when they pose an
                   unreasonable risk to human health or the environment, and to regulate their
                   distribution and use.”5 OPPT gathers data to provide the EPA information that can
                   be used and analyzed to reduce the risk of chemical exposure. OPPT helps to
                   ensure that chemicals used and sold in the United States do not harm human
                   health and the environment. OPPT has six divisions to address the production,
                   importation, use and disposal of both existing and new chemicals (see figure 1).

                   Figure 1. OPPT organizational chart




                   Source: OPPT.

                   OPPT’s Director is responsible for the overall quality of OPPT’s programs, in
                   accordance with their quality management plan. The OPPT Director delegates
                   management of quality assurance activities to the Quality Assurance Manager
                   (QAM). The QAM has full responsibility and authority to implement OPPT’s
                   quality assurance activities with respect to the agency’s quality management
                   systems. The QAM is the official point of contact for all quality assurance matters
                   and is the liaison between OPPT and OEI. The QAM is responsible for reviewing
                   and approving each OPPT division’s Quality Management Plan and quality
                   assurance project plans. Each OPPT Division Deputy Director works as the
                   Quality Assurance Coordinator (QAC) and oversees the division’s quality
                   assurance activities.

                   OPPT began an office reorganization in the fall of 2013 which coincided with
                   OPPT’s 5-year Quality Management Plan renewal deadline. OPPT requested an
                   extension to submit the renewed Quality Management Plans to OEI and OEI
                   approved the extension. OEI may grant an extension if it recently conducted a
                   quality systems assessment, and OEI had conducted a quality systems assessment

5
    15 U.S.C. §2601.



14-P-0350                                                                                            2
                of OPPT in November 2012. OEI’s 2012 quality systems assessment found that
                OPPT’s quality systems were in compliance with their Quality Management Plan.
                OPPT must submit an updated Quality Management Plan to OEI by September
                2014. Although OPPT has its own Quality Management Plan, each of its six
                divisions are responsible for implementing its own divisional Quality
                Management Plan.

                RAD and Its Quality Management Plan

                RAD consists of four branch offices (see figure 2) and is responsible for
                numerous activities assessing the health and environmental hazards and risks of
                new and existing chemicals and microorganisms for both regulatory and
                non-regulatory programs. The division’s responsibilities include assessing the
                hazards of high-production-volume chemicals. The main components of these
                assessments are reviewing and evaluating test data submitted under TSCA for
                environmental and health effects. RAD also manages the Structure-Activity
                Team, which is responsible for initial assessment of fate and effects of chemicals.

                Figure 2. RAD organizational chart




                Source: RAD.

                According to RAD’s Quality Management Plan, it uses numerous tools to ensure
                data quality.6 RAD develops Quality Assurance Project Plans and uses standard
                operating procedures and other guidance documents to prepare work products and
                risk assessments. RAD uses external peer reviews, such as the agency’s Science
                Advisory Board; journal article and paper peer reviews; and, occasionally, the
                Office of Pesticide Program’s Science Advisory Panel. The RAD QAC is
                assigned the responsibility to assess quality assurance training needs and conducts
                annual internal audits of its quality assurance program. The branch chiefs are
                responsible for ensuring that needed training is scheduled, funded and taken. OEI
                guidance provides information on minor and major revisions. Minor revisions to
                the Quality Management Plan must be documented in the annual quality
                assurance report. Major revisions or reissuance of the Quality Management Plan
                are required when there is a significant mission change or major reorganizations.
                Similar to OPPT, RAD has committed to submitting an updated Quality
                Management Plan for approval to OEI by September 2014.

6
  The RAD “Quality Management Plan exists in the context of the OPPT Quality Management Plan,” which is under
the control of the OPPT QAM.


14-P-0350                                                                                                  3
Responsible Offices
                   The offices responsible for the issues evaluated in this report are the Office of
                   Chemical Safety and Pollution Prevention’s OPPT and OPPT’s RAD.

Scope and Methodology
                   We conducted this performance audit in accordance with generally accepted
                   government auditing standards. Those standards require that we plan and perform
                   the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
                   for our findings and conclusions based on our objectives. We believe that the
                   evidence obtained provides a reasonable basis for our results based upon our
                   objectives. We conducted this audit from January to July 2014.

                   We reviewed relevant documents, including laws, regulations, policies and
                   procedures. We focused on management activities listed in EPA Order 2105 and
                   the EPA Quality Manual for Environmental Programs. We also reviewed quality
                   guidance documents, including the current OPPT and RAD Quality Management
                   Plans.7

                   Our review of the current RAD Quality Management Plan focused on quality
                   assurance training, internal audits and Quality Management Plan revisions. We
                   interviewed agency officials, including OEI’s Director of Quality Staff, OPPT’s
                   Deputy Director of Programs, OPPT’s QAM, RAD’s Division Director and
                   Deputy Division Director/QAC, and other RAD personnel. We reviewed the
                   RAD’s Quality Assurance Project Plans, standard operating procedures, and the
                   fiscal years (FYs) 2009/2010, 2012/2013 and 2013/2014 annual quality assurance
                   reports and work plans. We obtained information regarding quality assurance
                   training and types of RAD work products. We reviewed quality management
                   plans from the Office of Pesticide Programs and the Office of Research and
                   Development. We also reviewed annual quality assurance reports from the Office
                   of Resource Conservation and Recovery and the Office of Pesticide Program’s
                   Biological and Economic Analysis Division.

Results of Review
                   According to the RAD’s Quality Management Plan, the division uses the elements
                   shown in table 1 to ensure data quality. During our review, we found that RAD
                   has adhered to some but not all aspects of its current Quality Management Plan.
                   RAD did not fully implement key aspects of its Quality Management Plan related
                   to training, internal audits and plan revisions. Additionally, we found that, unlike
                   other agency offices business practices, RAD does not post its Quality
                   Management Plan online.


7
    For both OPPT and RAD, the 2008 Quality Management Plan is the most current version.


14-P-0350                                                                                              4
                    Table 1: RAD adherence to quality assurance activities

                                        Quality assurance requirement                  Adherence

                     RAD QAC assigned.                                                     Yes

                     Management review of quality assurance project plans and              Yes
                     standard operating procedures.

                     Identification of quality assurance training needs.                   No

                     Provide in-house quality assurance training.                          No

                     Contribute to the OPPT annual report.                                 Yes

                     Revisions and updates to Quality Management Plan.                     No

                     Yearly internal audits of divisional quality assurance program.       No

                    Source: OIG analysis of quality management plan requirements.

                    Quality Assurance Training

                    Within its Quality Management Plan, RAD lists “providing in-house formal
                    training classes” as a training mechanism. Yet RAD is not ensuring managers and
                    staff take in-house formal quality assurance training—a key aspect of its current
                    Quality Management Plan. RAD training mechanisms include: attending
                    scientific and professional society meetings and workshops, attending seminars
                    and training classes offered by various software and vendors, and offering
                    recertification classes and informal peer-to-peer training. The Office of Water
                    offered quality assurance training in FY 2013 that only seven RAD staff members
                    attended; however, although applicable to the environmental data RAD works
                    with, the training was not RAD-specific.

                    RAD senior management stated that RAD does not have formal quality assurance
                    training.8 One of RAD’s four branch chiefs commented that he could not
                    remember taking any quality assurance training since becoming a branch chief.
                    The RAD division director informed the Office of Inspector General (OIG) that
                    their training process is informal. In FY 2012/2013, informal training was
                    achieved through a technical discussion of topics presented to a team of peers.
                    RAD also relies on branch chiefs and project managers to train staff through
                    mentoring. However, without formal quality assurance training, RAD will be
                    unable to ensure that the information passed from mentoring is consistent or the
                    best quality assurance information is available. Additionally, without formal
                    training in place, institutional knowledge can be lost with employee attrition.



8
    OEI does not provide a formal overall quality assurance training program.


14-P-0350                                                                                           5
                   OPPT is aware of the need to provide quality assurance training to its staff. The
                   QAM acknowledged the quality assurance training gap and plans to develop
                   specific quality assurance training for OPPT, which will include RAD. The QAM
                   stated that there are plans to design training with other agency QAMs, which
                   would potentially establish a more solid program for the entire OPPT quality
                   assurance system. Additionally, a meeting was held in March 2014 with the EPA
                   quality assurance community to discuss ways to better serve their respective
                   program offices.

                   In addition to requiring quality assurance training, RAD’s current Quality
                   Management Plan states that the QAC is responsible for conducting formal
                   quality assurance training needs assessments. Training needs assessments are
                   necessary to ensure that quality assurance-related training needs are addressed and
                   the resources are available to complete the training. However, according to
                   OPPT’s quality assurance annual reports (FYs 2009, 2012 and 2013), RAD did
                   not conduct a formal quality assurance training needs assessment.

                   Internal Quality Assurance Audits

                   The RAD QAC has not conducted internal audits of their quality assurance
                   programs. A quality audit is defined as “a systematic and independent
                   examination to determine whether quality activities and related results comply
                   with planned arrangements and whether these arrangements are implemented
                   effectively and are suitable to achieve objectives.”9 As stated earlier, the role of
                   the QAC is to ensure quality assurance of their division. According to the current
                   RAD Quality Management Plan, the division’s QAC is required to conduct annual
                   internal quality assurance audits of their programs. According to OPPT’s quality
                   assurance annual reports (FYs 2009, 2012 and 2013), RAD did conduct routine
                   reviews of work products by staff and the assigned management teams. RAD also
                   had external peer reviews of scientific data. However, these activities do not
                   qualify as annual internal quality audits by RAD QAC. Moreover, during
                   interviews, RAD senior management acknowledged that their division has not
                   conducted any internal quality assurance audits. Routine internal quality
                   assurance audits help identify potential deficiencies in data quality and
                   management controls.

                   Quality Management Plan Revisions

                   RAD has not revised its Quality Management Plan when changes occurred to its
                   program activities, including major risk assessment responsibilities. The EPA
                   Quality Manual for Environmental Programs requires that the Quality
                   Management Plan be reviewed annually and updated or reissued as needed.
                   Necessary updates include major revisions to program roles and responsibilities.
                   The current RAD Quality Management Plan specified that they develop and
                   prepare Integrated Risk Information System (IRIS) assessments. In contrast, RAD
9
    Defined by the EPA Quality Manual for Environmental Programs, CIO 2105-P-01-0, May 2000.


14-P-0350                                                                                            6
            stopped producing IRIS assessments in 2011 and a subsequent Federal Register
            notice announced the elimination of RAD’s role in the IRIS preparation.
            However, the revisions to their quality assurance activities regarding IRIS
            assessments have not been documented in either the quality assurance annual
            report and work plan or a revised Quality Management Plan. In addition, the
            current RAD Quality Management Plan included information on the Chemical
            Assessment and Management Program, which is a program that ceased in 2009.
            Although this change was contained in the FY 2009 annual quality assurance
            report, it was a major shift in quality assurance activities for RAD and, therefore,
            should have resulted in a revision or reissuance of their Quality Management Plan
            in accordance with the EPA and RAD quality assurance guidance.
            Quality Management Plan Accessibility

            RAD does not post its Quality Management Plan on its Intranet. Posting the plan
            would increase transparency and enhance availability to the EPA staff. As a good
            business practice, we found that other agency offices make their quality
            management plans available to all by posting it on the EPA’s Intranet. Quality
            management plans, annual quality assurance reports, internal audits, and revisions
            to the plans that are posted to an intranet can be easily found by managers and
            staff. For instance, the Office of Pesticide Programs has its Quality Management
            Plan online. Its Quality Management Plan includes training requirements for its
            QAM, quality assurance officers and contracting officer representatives. It goes
            further to list the specific quality assurance training that these individuals must
            take. The Office of Research and Development includes revisions or updates to its
            Quality Management Plan on the Office of Research and Development’s Intranet.

Conclusions
            The lack of adherence to several aspects of RAD’s Quality Management Plan
            creates the risk that RAD’s quality system cannot meet the EPA’s quality
            management system’s goal. Without a robust quality management system, RAD
            risks having environmental and human health policy decisions that rest on a faulty
            foundation. To enhance its quality management system, RAD needs to implement
            quality assurance training and conduct training needs assessments to ensure that
            managers and staff obtain relevant quality assurance knowledge. RAD’s QAC
            needs to conduct annual independent reviews of the division’s quality assurance
            processes to assure the quality of work products. The EPA needs to have accurate,
            reliable and relevant Quality Management Plans because they are an essential part
            of valid and reliable decisions. Chemical risk assessments using high-quality data
            are critical to maintaining public trust in the EPA.




14-P-0350                                                                                      7
Recommendations
            We recommend that the Assistant Administrator for Chemical Safety and
            Pollution Prevention:

               1. Develop formal quality assurance training that enhances awareness and
                  understanding of relevant quality management policies and requirements
                  for managers and staff to prevent loss of institutional knowledge and
                  comply with their Quality Management Plan.

               2. Direct RAD’s QAC to conduct annual internal quality assurance audits in
                  accordance with RAD’s Quality Management Plan.

               3. Direct RAD to identify and document individual staff training needs to
                  ensure that RAD addresses quality assurance-related training gaps.

               4. Ensure that RAD’s Quality Management Plan and/or OPPT’s quality
                  assurance annual report and work plan are updated accordingly when
                  minor and major changes to RAD’s quality assurance activities are made.

               5. Provide internal online access to RAD’s Quality Management Plan to
                  increase staff accessibility to relevant quality assurance activities.

               6. Conduct a quality assurance analysis of OPPT to determine whether all
                  divisions have fully implemented their Quality Management Plans.

Agency Comments and OIG Evaluation
            The agency agreed with our recommendations, and provided corrective actions
            and estimated completion dates that meet the intent of the recommendations.
            Based on the agency’s written response, we have determined that the
            recommendations are resolved and open with corrective actions ongoing. One
            recommendation is closed due to being implemented prior to the final report
            issuance. No further response to this report is required. The agency’s detailed
            response is in appendix A and our response to the agency is embedded in
            appendix A. The agency also provided technical comments on the draft report,
            which we have incorporated into our report as appropriate.




14-P-0350                                                                                     8
                               Status of Recommendations and
                                 Potential Monetary Benefits

                                                                                                                               POTENTIAL MONETARY
                                                  RECOMMENDATIONS                                                               BENEFITS (in $000s)

                                                                                                                   Planned
    Rec.    Page                                                                                                  Completion   Claimed    Agreed-To
    No.      No.                        Subject                           Status1        Action Official             Date      Amount      Amount

     1        8    Develop formal quality assurance training that           O       Assistant Administrator for    12/31/14
                   enhances awareness and understanding of                            Chemical Safety and
                   relevant quality management policies and                           Pollution Prevention
                   requirements for managers and staff to prevent
                   loss of institutional knowledge and comply with
                   their Quality Management Plan.

     2        8    Direct RAD’s QAC to conduct annual internal              O       Assistant Administrator for    9/30/15
                   quality assurance audits in accordance with RAD’s                  Chemical Safety and
                   Quality Management Plan.                                           Pollution Prevention

     3        8    Direct RAD to identify and document individual staff     O       Assistant Administrator for    9/30/15
                   training needs to ensure that RAD addresses                        Chemical Safety and
                   quality assurance-related training gaps.                           Pollution Prevention

     4        8    Ensure that RAD’s Quality Management Plan                O       Assistant Administrator for    9/30/15
                   and/or OPPT’s quality assurance annual report and                  Chemical Safety and
                   work plan are updated accordingly when minor and                   Pollution Prevention
                   major changes to RAD’s quality assurance
                   activities are made.

     5        8    Provide internal online access to RAD’s Quality          C       Assistant Administrator for    7/29/14
                   Management Plan to increase staff accessibility to                 Chemical Safety and
                   relevant quality assurance activities.                             Pollution Prevention

     6        8    Conduct a quality assurance analysis of OPPT to          O       Assistant Administrator for    9/30/15
                   determine whether all divisions have fully                         Chemical Safety and
                   implemented their Quality Management Plans.                        Pollution Prevention




1   O = Recommendation is open with agreed-to corrective actions pending.
    C = Recommendation is closed with all agreed-to actions completed.
    U = Recommendation is unresolved with resolution efforts in progress.




14-P-0350                                                                                                                                         9
                                                                                  Appendix A

 Agency Response to Draft Report and OIG Comments
                                          July 30, 2014




                   UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                WASHINGTON, D.C. 20460




MEMORANDUM

SUBJECT:       Response to Office of Inspector General Draft Report No. OPE-FY14-0012
               “EPA’s Risk Assessment Division has Not Fully Adhered to Its Quality
               management Plan,” dated June 30, 2014

FROM:          James J. Jones
               Assistant Administrator for Chemical Safety and Pollution Prevention

TO:            Arthur A. Elkins, Jr.
               Inspector General (OIG)

Thank you for the opportunity to respond to the subject audit report. This memorandum provides
the Agency’s response to OIG’s recommendations, and identifies corrective actions the Agency
will be taking in response (Attachment A). In addition, the Agency has suggested technical
corrections to improve the accuracy of the report (Attachment B).

Every day the Office of Pollution Prevention and Toxics (OPPT) produces and uses scientific
and technical work products that inform Agency decision making. We make approximately
1,000 new chemicals decisions a year based on assessments that are unchallenged by industry
and other stakeholders. Our tools and models are used around the world for chemicals-related
decision making. OPPT scientists play leading roles internationally in such bodies as the OECD
to develop the next-generation of chemical assessment guidelines and risk assessment
approaches. OPPT’s Work Plan risk assessment program for existing chemicals is producing
assessments that are subjected to independent, expert review that surpasses in rigor federal and
Agency guidelines for peer review. It is notable that the external peer reviews of all the Work
Plan assessments we have completed thus far have supported our overall assessment
methodologies and conclusions. OPPT’s record of strong and sound science is consistent with

 OIG Response: The scope of our evaluation did not include a review of the quality of
 OPPT’s scientific and technical work products.


14-P-0350                                                                                      10
the fact that your office’s review of our quality system found no concerns with the quality of
OPPT’s scientific and technical work products.
The administrative recommendations that have resulted from your audit are very useful, and we
look forward to implementing them. The report contains a total of six recommendations:

Recommendation 1. Develop formal quality training that enhances awareness and understanding
of relevant quality management policies and requirements for managers and staff to prevent loss
of institutional knowledge and comply with their quality management plan.

Recommendation 2. Direct RAD’s QAC to conduct annual internal quality assurance audits in
accordance with RAD’s Quality Management Plan.

Recommendation 3. Direct RAD to identify and document individual staff training needs to
ensure that RAD addresses quality assurance-related training gaps.

Recommendation 4. Ensure that RAD’s Quality Management Plan and/or OPPT’s quality
assurance annual report and work plan updated accordingly when minor and major changes to
RAD’s quality assurance activities are made.

Recommendation 5. Provide internal online access to RAD’s Quality Management Plan to increase
staff accessibility to relevant quality assurance activities.

Recommendation 6. Conduct a quality assurance analysis of OPPT to determine whether all divisions
have fully implemented their Quality Management Plans.

The Agency concurs with all of the report recommendations and will begin steps to implement
the corrective actions identified in Attachment A.

We do take issue with one finding. The draft report states (p. 7) that OPPT’s changes in program
activities since 2009 have led to a major shift in quality assurance activities, and implies that its
current Quality Management Plan is not accurate, reliable, or relevant. The final report should
take care not to convey this implication. Our QMP is relevant to and supportive of all OPPT
scientific and technical activities, including our new and existing chemical risk assessments.

While the policy goals and programmatic focus for conducting data reviews and evaluations
within OPPT have changed over the past 5 years, the sources and types of data, the evaluation
approaches and tools, and the QA/QC activities associated with using this data have not changed
significantly or substantively. This is largely due to OPPT’s adherence to Agency assessment
guidelines and contract management processes and procedures. We did not make changes to the
QMP because changes in program activities were explained in the Quality Assurance Annual
Report and Work Plan (QAARWP), and the QA/QC activities did not change in any substantive
way. Each QAARWP has a section for addressing changes to the QMP. In each of the
QAARWPs for 2008-2013, OPPT noted that no changes to the QMP were warranted; the
QAARWPs were submitted to and accepted by the Agency’s Office of Environmental
Information.




14-P-0350                                                                                          11
 OIG Response: The OIG did not state that RAD’s current QMP is not accurate, reliable or
 relevant. We specifically state that RAD has adhered to some but not all aspects of its
 current quality management plan. OEI’s guidance was used to determine RAD’s use and
 implementation of its QMP. Our review of OEI guidance and RAD’s activities indicated
 that certain RAD program changes were major activities and thereby should have resulted
 in an updated QMP. OIG suggests that OPPT contact OEI to obtain more information or
 request updated guidance that further clarifies how to determine a major activity.

If you have questions or need further information about this response, please contact Deborah
Hartman, OCSPP’s Audit Liaison at (202) 564-1488.




14-P-0350                                                                                       12
                            Attachment A: Corrective Action Plan

 EPA’s Risk Assessment Division Has Not Fully Adhered to Its Quality Management Plan
                     Report No. OPE-FY14-0012 (June 30, 2014)
    Recommendation             Corrective Action                    Target Date

 Recommendations to OCSPP Assistant Administrator
1. Develop formal quality OCSPP accepts the          FY15; Q1
   training that enhances    OIG recommendation.
   awareness and
   understanding of          OPPT will develop a
   relevant quality          formal quality training
   management policies       program.
   and requirements for
   managers and staff to
   prevent loss of
   institutional knowledge
   and comply with their
   quality management
   plan.
2. Direct RAD’s QAC to       OCSPP accepts the       Annually, beginning in FY15.
   conduct annual internal OIG recommendation.
   quality assurance audits
   in accordance with        The OPPT-RAD QAC
   RAD’s Quality             will conduct internal
   Management Plan.          quality assurance
                             audits.
3. Direct RAD to identify OCSPP accepts the          Annually, beginning in FY15.
   and document              OIG recommendation.
   individual staff training
   needs to ensure that      OPPT-RAD will
   RAD addresses quality identify and document
   assurance-related         Division staff training
   training gaps.            needs in the annual
                             QA/AC report.

                             Individual staff
                             training needs will be
                             addressed in
                             Individual
                             Development Plans
4. Ensure that RAD’s         OCSPP accepts the         Annually, beginning in FY15 or when a
   Quality Management        OIG recommendation.       major change in QA/QC activity occurs.
   Plan and/or OPPT’s
   quality assurance         OPPT-RAD will more
   annual report and work    explicitly identify and


14-P-0350                                                                                   13
   plan updated                document, in the
   accordingly when            annual QA/QC report,
   minor and major             when changes to
   changes to RAD’s            quality assurance
   quality assurance           activities are made.
   activities are made.
5. Provide internal online     OCSPP accepts the      Completed
   access to RAD’s Quality     OIG recommendation.    July 29, 2014
   Management Plan to                                 http://intranet.epa.gov/opptwork/quality-
   increase staff              OPPT has posted its    management/
   accessibility to relevant   QMP on the intranet.
   quality assurance
   activities.
6. Conduct a quality           OCSPP accepts the      FY15
   assurance analysis of       OIG recommendation.
   OPPT to determine
   whether all divisions
   have fully implemented
   their Quality
   Management Plans.




14-P-0350                                                                                    14
                                                                                 Appendix B

                                     Distribution
Office of the Administrator
Assistant Administrator for Chemical Safety and Pollution Prevention
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Deputy Assistant Administrator for Chemical Safety and Pollution Prevention
Director, Office of Pollution Prevention and Toxics, Office of Chemical Safety and
       Pollution Prevention
Director, Risk Assessment Division, Office of Pollution Prevention and Toxics,
       Office of Chemical Safety and Pollution Prevention
Audit Follow-Up Coordinator, Office of Chemical Safety and Pollution Prevention
Audit Follow-Up Coordinator, Office of Pollution Prevention and Toxics,
       Office of Chemical Safety and Pollution Prevention




14-P-0350                                                                                 15
